No. 20-7304
IN THE

Supreme Court of the United States
ROBERT PHILLIP IVERS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE EIGHTH CIRCUIT

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29 and the April 15 Order of this Court,
I, Brett D. Kelley, an attorney appointed to represent petitioner under the Criminal
Justice Act, 18 U.S.C. ยง 3006A, hereby certify that, on this 14th day of May, 2021, all
parties required to be served have been served a copy of Reply Brief for Petitioner in
this matter to the addresses on the attached service list. The Solicitor General and
Professor William M. Janssen were served via email and third-party commercial
carrier for delivery within three calendar days.

BRETT D. KELLEY
CJA Counsel for Petitioner
KELLEY, WOLTER & SCOTT, P.A.
Centre Village Offices
Suite 2530
431 South Seventh Street
Minneapolis, MN 55415
Tel: (612) 371-9090
Fax: (612) 371-0574
bkelley@kelleywolter.com

SERVICE LIST

ELIZABETH PRELOGAR
Solicitor General of the United States
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave. N. W., Room 5616
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
WILLIAM M. JANSSEN
Counsel for Amicus Curiae Law Professors
CHARLESTON SCHOOL OF LAW
81 Mary Street
Charleston SC 29403
(843) 377-2442
wjanssen@charlestonlaw.edu

2

